No.
In The

Supreme Court of tlje fHmteb ibtateg
Paul Ross Evans,
Petitioner,
v.
United States of America,
Respondent.

On Petition for a Writ of Certiorari to the United
States Court of Appeals for the Fifth Circuit

PETITION FOR A WRIT OF CERTIORARI

Paul Ross Evans
#83230-180
Pro Se
FCI Schuylkill
PO Box 759
MlNERSVILLE, PA 17954-0759

1

QUESTION PRESENTED
1. When a motion under Fed. R. Civ. Proc. 60(b) is
granted with respect to a prisoner’s first application
under 28 U.S.C. 2255, whether a subsequent
amendment to that same proceeding under section
2255 may potentially be questioned in view of 28
U.S.C. 2244(b)(3)(A) as being a second or successive
application?

11

TABLE OF CONTENTS
Page
OPINIONS BELOW

1

JURISDICTION

1

STATUTORY PROVISION INVOLVED

1

STATEMENT OF THE CASE

1

REASONS FOR GRANTING THE WRIT

3

CONCLUSION

9

INDEX OF APPENDICES
Page
APPENDIX A: Opinion of the United States
court of appeals for the Fifth Circuit, filed
July 14, 2019...................................................

la

APPENDIX B: Order of the Fifth Circuit
denying reconsideration, filed September
26, 2019...........................................................

5a

APPENDIX C: Opinion of the United States
district court for the Western District of
Texas, filed May 24, 2018...........................

6a

APPENDIX D: Order of the district court
denying reconsideration, filed June 22,
2018..............................................................

8a

Ill

TABLE OF AUTHORITIES
Page
Cases
Cuyler v. Sullivan,
446 U. S. 335 (1980)

6

Gonzales v. Crosby,
545 U.S. 524 (2005)

4

Johnson v. United States,
135 S. Ct. 2551 (2015)

7-8

Miller-El v. Cockrell,
537 U.S. 322 (2003)

3-5

Slack v. McDaniel,
529 U.S. 473 (2000)

3, 5-6

Strickland v. Washington,
466 U.S. 668 (1984).....

5-6

United States v. Cronic,
466 U.S. 648 (1984).

5

United States v. Evans,
No. 17-50656 (5th Cir.)

7

Statutes and Rules
28 U.S.C. § 1254(1)

1

28 U.S.C. 2244(b)(3)(A)

1

IV

28 U.S.C. 2255

2-3, 6-8

Fed. R. Civ. Proc. 60(b)

2-6, 8

Fed. R. Civ. Proc. 60(b)(3)

6

Fed. R. Civ. Proc. 60(c)(1)

6

1
OPINIONS BELOW
All opinions below are unpublished.
The opinion of the United States court of appeals
for the Fifth Circuit appears at Appendix A to the
petition. The opinion of the Fifth Circuit denying re­
consideration appears at Appendix B. The opinion of
the United States district court for the Western dis­
trict of Texas appears at Appendix C. The opinion of
the district court denying reconsideration appears at
Appendix D.
JURISDICTION
The Fifth Circuit entered its opinion on July 24,
2019. App. A. A timely petition for reconsideration
was denied on September 26, 2019. App. B. The ju­
risdiction of this Court is invoked under 28 U.S.C. §
1254(1).
STATUTORY PROVISION INVOLVED
The statutory provision involved in this case is
set forth as follows:
28 U.S.C. 2244(b)(3)(A)
Before a second or successive application permit­
ted by this section is filed in the district court, the
applicant shall move in the appropriate court of ap­
peals for an order authorizing the district court to
consider the application.
STATEMENT OF THE CASE
Reasoning it was a second or successive applica­
tion under 28 U.S.C. 2244(b)(3)(A), the district court

2
denied Evans’ timely motion under Fed. R. Civ. Proc.
60(b) to set aside the final judgment in his first (and
only) motion under 28 U.S.C. 2255.
On appeal, the Fifth Circuit found this debatable
(App. A, pp. 2a-3a):
Evans’s amended § 2255 motion was voluntar­
ily dismissed without prejudice prior to an adju­
dication on the merits. He now claims that his de­
fense counsel fraudulently induced him to dismiss
this motion. To the extent that Evans “attacks
‘some defect in the integrity of the federal habeas
proceedings,’ rather than the resolution on the
merits,” reasonable jurists would debate the dis­
trict court’s dismissal of his Rule 60(b) motion as
a second or successive petition. In re Edwards,
865 F.3d 197, 204 (5th Cir. 2017) (quoting Gon­
zalez v. Crosby, 545 U.S. 524, 532 (2005)); see also
Slack, 529 U.S. at 489 (holding that “a habeas pe­
tition filed after an initial petition was dismissed”
for failure to exhaust state remedies “without an
adjudication on the merits is not a ‘second or suc­
cessive’ petition”).
The Fifth Circuit, however, ultimately denied Ev­
ans’ motion for a certificate of appealability (COA) on
the ground that “Evans has not made has not made
the required showing of a debatable constitutional
claim.” App. A, p. 3a, ^2.
The district court, however, had appointed coun­
sel with instructions to add the claim in question by
amendment to Evans’ original claims filed pro se. It
would thus appear to be a foregone conclusion that
reasonable jurists can debate whether the added
claim is at least “valid” under the threshold inquiry

3
standard of Slack v. McDaniel, 529 U.S. 473, 481,
484 (2000), given that it was the district court itself
which ordered it to be added in the first place. See
also Miller-El v. Cockrell, 537 U.S. 322, 323 (2003).
As the district court explains itself in a footnote
(ROA.126, p. 1, n. 1):
The Federal Public Defender was appointed to
represent Evans to pursue a claim under Johnson
v. United States, 135 S. Ct. 2551 (2015). The Fed­
eral Public Defender filed an amended § 2255 mo­
tion [#48] on behalf of Evans on June 23, 2016.
This case was stayed pending the outcome of
Beckles u. United States, No. 15-8544. On May 23,
2017, Evans voluntarily dismissed the amended
motion. Evans's original § 2255 motion is cur­
rently before the Court.
In denying the motion for a COA, the Fifth Cir­
cuit reasoned that Evans seeks to raise a new claim
“not raised in his amended § 2255 petition, and rea­
sonable jurists would not debate the district court’s
dismissal of this new claim as second or successive.”
App. A, p. 3a, If 3. In a nutshell, the Fifth Circuit
surmised that amendment would be needed for Ev­
ans to succeed on the merits, but that any new
claims would be second or successive.
REASONS FOR GRANTING THE WRIT
If the effect of granting a motion under Rule 60(b)
is to return a case to the state it was in before final
judgment, then future amendments to the case can­
not institute second or successive proceedings so long
as the first proceeding remains in effect.

4
The Court should grant review to clarify this mat­
ter for the lower courts. The supervisory power of
this Court is invoked for the obvious reason that the
Fifth Circuit has shown itself unable to distinguish
first from second, as is required for an appreciation
of the rules of order.
In Gonzales v. Crosby, 545 U.S. 524, 532 (2005),
the Court introduced confusion concerning the situa­
tion in which “a Rule 60(b) motion attacks, not the
substance of the federal court's resolution of a claim
on the merits, but some defect in the integrity of the
federal habeas proceedings.” For clearly the purpose
in attacking some defect in the integrity of the fed­
eral habeas proceedings is not merely to address
such a defect on academic grounds, but rather to re­
move the defect in hopes of obtaining a more favor­
able result than provided by the federal court’s prior
resolution of the habeas claims.
In the instant case, there is no telling in what di­
rection the habeas proceedings might have gone in,
had appointed counsel not fraudulently induced Ev­
ans to dismiss his claim added by counsel. For exam­
ple, had counsel continued to pursue the case, new
claims might have added by amendment, or existing
claims might have been modified. This presumption
is especially logical, given that the habeas proceed­
ings were dismissed at the pleading stages.
Hence, the Court should address this confusion by
clarifying that so long as the basis of the Rule 60(b)
motion attacks some defect in the integrity of the
federal habeas proceedings, then the habeas proceed­
ings should be allowed to take whatever course they
would have taken in absence of the defect, including
with any possible amendment of the claims.

5
According to Slack, 529 U.S., at 484, to obtain a
COA when, as here, the district court dismissed the
motion on a procedural ground without reaching the
merits, the movant must show “that jurists of reason
would find it debatable whether the petition states a
valid claim of the denial of a constitutional right and
that jurists of reason would find it debatable whether
the district court was correct in its procedural rul­
ing.” However, as this instant case makes clear, sat­
isfaction of the second prong should suffice to obtain
a COA to appeal the denial of a Rule 60(b) motion.
This follows since, at this point, the courts are no
position to divine the ultimate course the habeas pro­
ceedings will take in absence of the defect in integ­
rity. The question of whether a valid constitutional
claim is presented must therefore be left for another
day, after the integrity of the proceedings is restored.
Hence, given that the Fifth Circuit agreed that Ev­
ans satisfied the second prong of Slack, his motion
for a COA should have been granted.
This exception to the “valid claim” prong of Slack
is analogous in principle to the exception to applica­
tion of the prejudice prong of the Strickland test for
ineffective assistance when presented with “circum­
stances that are so likely to prejudice the accused
that the cost of litigating their effect in a particular
case is unjustified.” United States u. Cronic, 466 U.S.
648, 658-659, and n. 29 (1984). “[S]uch circumstances
involve impairments ... that are easy to identify and
... easy for the government to prevent.” Strickland v.
Washington, 466 U.S. 668, 669 (1984).
Moreover, it would clearly go beyond a “threshold
inquiry into the underlying merit of [the] claims” for
the Court of Appeals to attempt to divine the validity
of a claim under such circumstances. Miller-El, 537

6
U.S., at 323. See also, e.g., Slack, 529 U.S., at 481.
Accordingly, an exception to application of the “valid
claim” prong of Slack makes practical sense in cases
where the district court’s procedural ruling in deny­
ing a Rule 60(b) motion is at least debatable by ju­
rists of reason.
The suggested exception is similarly analogous to
the exception to application of Strickland’s prejudice
prong in cases of conflicted counsel. Cuyler v. Sulli­
van, 446 U. S. 335, 345-350 (1980). “In those circum­
stances, counsel breaches the duty of loyalty, per­
haps the most basic of counsel's duties. Moreover, it
is difficult to measure the precise effect on the de­
fense of representation corrupted by conflicting in­
terests.” Strickland, 466 U.S., at 669. There is little
question that appointed counsel’s loyalties were not
with Evans; and, it is similarly difficult to measure
the precise effect on the habeas proceedings of repre­
sentation corrupted by conflicting interests.
A few notes are in order.
As the Rule 60(b)(3) motion was filed within the
one-year period provided by Rule 60(c)(1), there is no
question of judicial economy, only one of the judicial
quality which Rule 60(b) is meant to address.
In denying reconsideration, the district court
states (App. D, p. 8a, f 2):
Evans previously challenged his conviction in
a Motion to Vacate, Set Aside or Correct Sentence
pursuant to 28 U.S.C. § 2255. ... The Federal Pub­
lic Defender filed an additional § 2255 motion on
behalf of Evans on June 23, 2016, raising a claim
under Johnson v. United States, 135 S. Ct.
2551(2015).

7
On the contrary, the record shows that appointed
counsel filed not an “additional” section 2255 motion,
but rather an amended motion which was supple­
mental to the original motion filed pro se. See
ROA.101, at 109, #14 (“This motion supplements Ev­
ans' pro se filing, document 41, in this cause num­
ber.”) Moreover, the original motion under section
2255 (ROA.65) and the order dismissing the
amended motion (ROA.125) both have the same
cause number. There can be no ambiguity that the
original and amended section 2255 motion are part of
the same habeas proceeding.
Likewise, the Fifth Circuit has also treated the
claim filed by counsel under Johnson v. United
States, 135 S. Ct. 2551(2015), as if presented in a ha­
beas proceeding which is somehow separate from the
one in which four claims were raised by Evans pro
se. For example, the Fifth Circuit states in its opin­
ion (App. A, p. 3a, Tf 3):
In his COA motion, Evans also seeks to chal­
lenge his plea agreement. This claim was not
raised in his amended § 2255 petition, and rea­
sonable jurists would not debate the district
court’s dismissal of this new claim as second or
successive. See Edwards, 865 F.3d at 203-04.
On the contrary, as the Fifth Circuit stated in de­
nying a COA on appeal from the dismissal of the first
four claims filed in this proceeding (United States v.
Evans, No. 17-50656, Order filed 10/03/2018):
Paul Ross Evans, federal prisoner # 83230180, seeks a certificate of appealability (COA) to
appeal the dismissal of his 28 U.S.C. § 2255 mo-

8
tion challenging his guilty plea conviction and
480-month sentence for weapons offenses.
Hence, there can be no question that a challenge
of Evans’ guilty plea is fairly included among the five
claims raised in his amended section 2255 motion,
and which amended motion consists of the four origi­
nal claims filed pro se and the one Johnson claim
filed by counsel as a supplement. In contrast, allow­
ing the courts, as if by sleight of hand, to treat the
one habeas proceeding as if two separate proceedings
gives rise to a false appearance of a second or succes­
sive proceeding.
It would appear by circumstances that the Fed­
eral Public Defender was conflicted by loyalty to the
district court’s effort to appoint counsel only “to pur­
sue a claim under Johnson” rather than to represent
Evans with respect to the entirety of his habeas pro­
ceeding. ROA.126, p. 1, n. 1. Another conflict is evi­
dent in that appointed counsel did not disclose that
he was working all the while under the supervision
of the same attorney who was the subject of Evans’
claim of ineffective assistance.
Hence, there can be no question that an integrity
defect exists such as merits the granting of the Rule
60(b) motion. It remains to be seen what course the
habeas proceedings will take in absence of such a de­
fect. Since the proceedings were dismissed at the
pleading stages, the Court should clarify that amend­
ment to the section 2255 motion is possible, that all
claims for relief must revisited in absence of the de­
fect, and that no amendment can constitute a second
or successive application, given that the present pro­
ceedings remain the first.

9

CONCLUSION
The petition should be granted.
Respectfully submitted,
Paul Ross Evans
#83230-180
Pro Se
FCI Schuylkill
PO Box 759
MlNERSVILLE, PA 17954-0759
December 2019

